7

No.

IN THE
SUPREME COURT OF THE UNITED STATES

RAFAEL ARTURO COTO CHINCHILLA
PETITIONER
VS.
STATE OF LOUISIANA
RESPONDENT(S)
CERTIFICATE OF SERVICE
I hereby certify that a copy of the foregoing Petition for a Writ of Certiorari has been
provided to the Clerk of Court for the United States Supreme Court by placing the same into prison
officials’ hands, properly addressed and first-class postage prepaid, in accordance with the
“mailbox rule,” on the

day of

,2021.

I further certify that I, Petitioner Rafael Arturo Coto Chinchilla, do not have the access or
financial ability to provide additional copies to the Clerk of Court or to serve the Parties where I
am indigent and therefore unable to cover the costs of the same.
I further certify, under penalty of perjury, that the foregoing is true and correct to the best
of my knowledge, information, and belief.
Executed on

,2021.

22
Ra#ael Arturo Coto Chinchilla,
#747756
Pro se Petitioner
life

21

